Office of Material Loss Reviews
Report No. MLR-10-027


Material Loss Review of First State Bank,
Flagstaff, Arizona




                                   March 2010
                                      Executive Summary

                                      Material Loss Review of First State Bank,
                                      Flagstaff, Arizona
                                                                                       Report No. MLR-10-027
                                                                                                  March 2010

Why We Did The Audit

The FDIC Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to conduct a material
loss review of First State Bank, Flagstaff, Arizona.

On September 4, 2009, the Arizona Department of Financial Institutions (AZ DFI) closed First State
Bank (FSB) and named the FDIC as receiver. On September 25, 2009, the FDIC notified the Office of
Inspector General (OIG) that FSB’s total assets at closing were $109.4 million and the estimated loss to
the Deposit Insurance Fund (DIF) was $46.1 million. As of January 29, 2010, the estimated loss to the
DIF had increased to $47.4 million. The OIG was required by section 38(k) of the Federal Deposit
Insurance (FDI) Act to conduct a material loss review of the failure of FSB and retained KPMG for this
purpose.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.


Background

FSB was established as a state-chartered institution, member of the Federal Reserve System, on
September 9, 1998. In 2004, FSB switched primary federal regulators, becoming a state nonmember
bank supervised by the FDIC. The bank was wholly-owned by Arizona Bancshares, Inc., and had no
subsidiaries or other affiliates. As of June 30, 2008, FSB operated seven offices in two Arizona counties,
Coconino and Gila.

FSB’s assets were concentrated in commercial real estate (CRE) lending, with a significant portion of
those loans extended for acquisition, development and construction (ADC) projects. To fund asset
growth from 2006 to 2008, FSB became more dependent upon Federal Home Loan Bank borrowings,
brokered deposits, and other non-core funding sources.


Audit Results

Causes of Failure and Material Loss

FSB’s failure can be attributed to poor asset quality stemming from high CRE loan concentrations in
ADC projects, purchases of risky loan participations, weak management and Board oversight, high
overhead expenses, and asset growth funded by non-core sources at a critical juncture in the bank’s
operations. The Board’s strategy, starting in 2006, to pursue asset growth partially funded by non-core
deposits, created a strategic risk for FSB. Subsequently, ineffective limits on the ADC concentration,
coupled with a failure to adequately address supervisory concerns, exposed the bank to unacceptable
levels of risk. The level of problem loans in the ADC-concentrated loan portfolio was responsible for
FSB’s deteriorating asset quality, financial decline, and eventual failure.



                                  To view the full report, go to www.fdicig.gov
                                      Material Loss Review of First State Bank,
   Executive Summary                  Flagstaff, Arizona

                                                                                     Report No. MLR-10-027
                                                                                                March 2010

The FDIC’s Supervision of FSB

Through its supervisory activities, the FDIC identified key risks in FSB’s operations and brought these to
management’s attention. Concerns noted by examiners included significant ADC loan concentrations,
growth strategies through the purchase of loan participations that failed to perform, general weak
management and Board oversight, high overhead expenses, and reliance on non-core funding sources.

The FDIC conducted one visitation in June 2004 and jointly conducted four on-site examinations with the
AZ DFI beginning in September 2004. Until May 2009, the FDIC relied on a combination of discussions
with management relative to areas of concern identified by examiners, and commitments from
management and the Board to address all problems and examiner recommendations. The FDIC first
imposed a supervisory action related to safety and soundness when a Cease and Desist Order was
instituted in May 2009 as a result of the December 2008 examination.

Based on FDIC and AZ DFI observations during the 2008 examination, a stronger supervisory response
at earlier examinations may have been prudent given the nature and extent of the risks taken by bank
management. Stronger supervisory action during the institution’s high-growth period may have
influenced FSB’s Board and management to limit the significant level of risks assumed, established a
more appropriate supervisory tone, and prompted FSB’s Board and management to take more timely and
adequate action to address examiner concerns, thereby mitigating, to some extent, the losses incurred by
the DIF.

Based on the supervisory actions taken, the FDIC properly implemented applicable PCA provisions.
However, capital levels turned out to be a lagging indicator of FSB’s financial condition. Other factors,
including earnings, asset quality, and management, identified in earlier examinations, were better
indicators that the bank’s viability was in question.


Management Response

After we issued our draft report, we met with FDIC management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On March 22, 2010, the Director, Division of Supervision and
Consumer Protection (DSC), provided a written response to the draft report. That response is provided in
its entirety on page II-2 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of FSB’s failure and the FDIC’s supervision
of the bank. DSC stated that FSB’s Board and management were expected to identify and control the
third-party risks arising from participatory relationships to the same extent as if the activity, such as
lending, were handled within the institution. The FDIC issued a Financial Institution Letter on Managing
Third-Party Risks in June 2008, which outlined the basic elements for effective third-party risk
management. Moreover, the FDIC’s Summer 2007 Supervisory Insights provided risk management
procedures for performing due diligence specifically on purchased loan participations.




                                  To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                                 Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                    Office of Inspector General




DATE:                                     March 25, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of First State Bank, Flagstaff, Arizona
                                          (Report No. MLR-10-027)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. The report did not contain
recommendations, thus a response was not required. However, the Division of Supervision and
Consumer Protection provided a written response on March 22, 2010. We incorporated the
response into Part II of the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or Mike
Lombardi, Audit Manager, at (703) 562-6328. We appreciate the courtesies extended to the
audit staff.

Attachment

cc: Stan Ivie, Regional Director, DSC
    Christopher E. Drown, Chief, Office of Internal Control and Review, DSC
    James H. Angel, Jr., Director, OERM
                            Table of Contents

Part I

   Report by KPMG LLP                                           I-1
   Material Loss Review, First State Bank, Flagstaff, Arizona

Part II

   OIG Evaluation of Management Response                        II-1

   Corporation Comments                                         II-2
      Part I

Report by KPMG LLP
                 Material Loss Review
                   First State Bank
                  Flagstaff, Arizona




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General
March 25, 2010




KPMG LLP
2001 M Street, NW
Washington, DC
                              Table of Contents


Executive Summary                                                           I-1

Background                                                                  I-3

Causes of Failure and Material Loss                                          I-4
  Concentration in CRE and ADC Lending                                       I-4
  Asset Growth Through Purchased Participation Loans                         I-6
  Management and Board Oversight                                             I-7
  Overhead Expenses                                                          I-9
  Funding Strategies                                                       I-10

The FDIC’s Supervision of FSB                                              I-11
  Supervisory History                                                      I-12
  Supervisory Concerns and Response to FSB’s Asset Quality                 I-13
  Supervisory Concerns and Response to FSB’s Board and Management          I-18
  Supervisory Concerns and Response to FSB’s Funding                       I-19
  Effectiveness of Offsite Review of FSB                                   I-19
  Implementation of PCA                                                    I-21

Appendices                                                                 I-23
  1. Objectives, Scope, and Methodology                                    I-23
  2. Glossary of Terms                                                     I-26
  3. Acronyms                                                              I-28

Tables
  1. Financial Condition of FSB                                              I-4
  2. Examination History of FSB from June 2004 to December 2008            I-12
  3. Supervisory Responses to CRE Concentrations for FSB                   I-14
  4. FSB’s PCA Capitalization Categories                                   I-21

Figures
   1. Comparison of FSB’s ADC Concentrations to its Peer Group              I-5
   2. Comparison of FSB's Total Non-interest Expenses as a Percentage of
      Average Assets to Peer Group                                         I-10
   3. Comparison of FSB's Non-core Funding Dependence to Peer Group        I-11
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036



March 25, 2010

Executive Summary

Stephen M. Beard
Assistant Inspector General for Material Loss Reviews
Federal Deposit Insurance Corporation
3501 North Fairfax Drive
Arlington, VA 22226

Material Loss Review Report for First State Bank, Flagstaff, Arizona

Dear Mr. Beard:

This is our performance audit report on the results of the Material Loss Review for First State
Bank (FSB), Flagstaff, Arizona. The objectives of this performance audit were to (1) determine
the causes of FSB’s failure and the resulting material loss to the Deposit Insurance Fund (DIF)
and (2) evaluate the FDIC’s supervision of FSB, including the FDIC’s implementation of the
Prompt Corrective Action (PCA) provisions of section 38.
Causes of Failure
FSB’s failure was due to poor asset quality stemming from high CRE and ADC loan
concentrations, purchases of risky loan participations, weak management and Board of Directors
(Board) oversight, high overhead expenses, and asset growth funded by non-core sources at a
critical juncture in the bank’s operations. The Board’s strategy, starting in 2006, to pursue asset
growth partially funded by non-core deposits created a strategic risk for FSB. Ineffective limits
on the ADC concentration, coupled with a failure to adequately address supervisory concerns,
exposed the bank to unacceptable levels of risk. The level of problem loans in the ADC-
concentrated loan portfolio was responsible for the deterioration of the bank’s asset quality,
which in 2008 caused the decline in FSB’s financial condition.
Evaluation of Supervision
Through its supervisory efforts, the FDIC identified key risks in FSB’s management practices
and operations and brought these risks to the attention of the institution’s Board and management
team through regular discussions and correspondence, examination reports, a visitation, and a
supervisory action. Regulators conducted one visitation in June 2004 after the bank switched
primary Federal regulators from the Federal Reserve Bank (FRB) to the FDIC, and four on-site
risk management examinations beginning in 2004.

From 2004 through 2007, FSB’s Risk Management composite rating remained a “2”, and the
institution’s safety and soundness was deemed satisfactory. Nevertheless, during this period the
FDIC identified risks that eventually led to the failure of the bank, and made recommendations to
the Board and management to address these concerns. The ultimate impact of management’s



                                                                                                 I-1
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
failure to reduce concentration levels and to manage and monitor its CRE and ADC
concentrations, as was recommended by examiners, was not fully exposed until the real estate
market slowed. Given that institutions with high ADC concentrations are particularly vulnerable
to economic downturns, more prompt and stronger supervisory attention to FSB’s lending
practices and the risks associated with the bank’s growth strategy may have been warranted.

Prompt Corrective Action

The FDIC followed PCA guidance. However, capital levels turned out to be a lagging indicator
of the institution’s financial condition. By the time the bank’s PCA capital category fell from
Well Capitalized to Adequately Capitalized in December of 2008, the financial condition of the
bank had severely deteriorated. Although FSB stipulated to a Cease and Desist Order (C&D) in
May of 2009, FSB was at serious risk of failure by the time the order was issued. As of June 30,
2009 the bank was Significantly Undercapitalized for PCA purposes.

We conducted our performance audit in accordance with Generally Accepted Government
Auditing Standards (GAGAS). Those standards require that we plan and perform the
performance audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

The information included in this report was obtained during our fieldwork, which occurred
during the period from December 2009 through February 2010.

Very truly yours,




                                                                                            I-2
Background
On September 4, 2009, the Arizona Department of Financial Institutions (AZ DFI) closed First
State Bank (FSB) and named the FDIC as receiver. On September 25, 2009, the FDIC notified
the Office of Inspector General (OIG) that FSB’s total assets at closing were $109.4 million and
the estimated loss to the Deposit Insurance Fund (DIF) was $46.1 million. As of January 29,
2010, the estimated loss had increased to $47.4 million. The OIG was required by section 38(k)
of the Federal Deposit Insurance (FDI) Act to conduct a material loss review of the failure of
FSB, and retained KPMG for this purpose.1

FSB was established as a state-chartered institution, member of the Federal Reserve System, on
September 9, 1998. In 2004, the bank switched primary federal regulators from the Federal
Reserve Bank of San Francisco (FRB) to the FDIC and became a state non-member bank. The
bank operated seven offices in two Arizona counties, Coconino and Gila, as of June 30, 2008.2
Nearly 96 percent of the institution’s total deposits were held in its six Coconino County offices.3
These offices held a combined market share of about 8 percent in the county, among the lowest
of the eight institutions with branch offices in the county. The bank’s deposit market share in
Gila County was less than 1 percent and the lowest among eight institutions operating in the
county. The bank was wholly-owned by Arizona Bancshares, Inc. The institution had no
subsidiaries or other affiliates.

FSB’s assets were concentrated in Commercial Real Estate (CRE), with a significant portion of
those loans extended for Acquisition, Development and Construction (ADC) projects. To fund
asset growth between 2006 and 2008, FSB became more dependent upon Federal Home Loan
Bank (FHLB) borrowings, brokered deposits, and other non-core funding sources.

Table 1 provides details on FSB’s financial condition as of December 2008, and for the 3
preceding calendar years.




1
  In conducting this performance audit and preparing this report, KPMG relied primarily on information provided by
the FDIC OIG and the Division of Supervision and Consumer Protection (DSC). Appendix I, Objectives, Scope,
and Methodology, describes in greater detail the procedures used by KPMG.
2
  According to FDIC Summary of Deposits, one of the Coconino County offices was a limited service mobile office
and its deposits were consolidated with other branches. In August 2008, FSB closed one of its Coconino County
offices.
3
  Deposit data are as of June 30, 2008 from the FDIC Summary of Deposits.


                                                                                                          I-3
Table 1: Financial Condition of FSB
Financial Data ($000s)                       Dec-08          Dec-07        Dec-06      Dec-05       Dec-04
Total Assets                                 121,247         111,458       83,088      69,590      $58,719
Total Loans                                   94,851          87,989       59,391      53,699      $46,568
  CRE Loans                                   73,215          65,015       39,073      38,137       35,946
Loan Growth                                   7.80%          48.15%        10.60%      15.31%      22.31%
Total Deposits                               101,100         82,230        67,161      57,740       47,659
Brokered Deposits/Total Liab.                14.35%           9.97%         3.15%       0.00%       0.00%
Tier 1 Capital Ratio                          7.19%          10.66%        13.62%       9.96%       10.49%
Total Risk-Based Capital Ratio                9.22%          11.69%        17.35%      12.54%      12.81%
Asset Growth                                  8.79%          34.14%        19.40%      18.52%      22.31%
Past Due + Nonaccrual Loans/Gross Loans      10.13%           0.96%         0.90%      0.02%        0.00%
Return on Average Assets                     -3.36%           0.27%         0.92%       1.09%       0.83%
Real Estate Loans/Total Assets               67.36%          64.98%        53.22%      63.24%      68.76%
Source: Uniform Bank Performance Report (UBPR) for FSB.

Causes of Failure and Material Loss
FSB’s failure was due to poor asset quality stemming from high CRE and ADC loan
concentrations, purchases of risky loan participations, weak management and Board of Directors
(Board) oversight, high overhead expenses, and asset growth funded by non-core sources at a
critical juncture in the bank’s operations. The Board’s strategy, starting in 2006, to pursue asset
growth partially funded by non-core deposits created a strategic risk for FSB. Ineffective limits
on the ADC concentration, coupled with a failure to adequately address supervisory concerns,
exposed the bank to unacceptable levels of risk. The level of problem loans in the ADC-
concentrated loan portfolio was responsible for the deterioration of the bank’s asset quality,
which in 2008 caused the decline in FSB’s financial condition.


Concentration in CRE and ADC Lending

As early as the 2002 Joint examination conducted by the FRB and AZ DFI, examiners noted a
high and increasing concentration of CRE loans. This concentration represented 434 percent of
Tier 1 Capital plus the Allowance for Loan and Lease Losses (ALLL). The CRE concentration
level continued to increase and reached 580 percent of Tier 1 Capital plus the ALLL by the
September 2003 Joint examination conducted by the FRB and AZ DFI. The majority of the CRE
portfolio was ADC loans. Examiners indicated that management needed to develop a more
comprehensive system to monitor its CRE concentrations. The high concentration level
continued, as evidenced by the results of the September 2004 Joint4 examination where it was
noted that, as of June 30, 2004, CRE loans represented 506 percent of Tier 1 Capital plus the
ALLL. The 2004 Report of Examination (ROE) noted that management adequately monitored
concentrations of credit by using multiple reports that segregated real estate loans by property,
type, and occupancy. On a monthly basis, management provided the Board with three reports
that showed the concentrations in various loan categories and the bank’s compliance with the
Board-established limits.


4
  The September 20, 2004 examination was the first examination conducted by FDIC after FSB switched primary
federal regulators from FRB to FDIC.


                                                                                                       I-4
Figure 1 shows FSB’s ADC concentration levels compared to its peer group5 by the end of each
calendar year from 2004 to 2008. As represented below, from 2004 to 2008 FSB’s loan
concentration was consistently higher than its peer group.

Figure 1: Comparison of FSB’s ADC Concentrations to its Peer Group

                                        450%
    % of Tier 1 Capital plus the ALLL




                                        400%
                                        350%
                                        300%
                                        250%
                                        200%
                                        150%
                                        100%
                                         50%
                                          0%
                                               2004     2005      2006      2007   2008
                                                      FSB      Peer Group

Source: UBPRs for FSB.

During the October 2007 Joint examination, examiners noted that FSB continued to maintain a
significant concentration in CRE loans that represented 619 percent of Tier 1 Capital plus the
ALLL as of September 30, 2007. The report also noted that enhanced concentration monitoring
should: 1) include underfunded commitments in calculating exposure; 2) segment the CRE
portfolio into smaller sectors such as office, retail, industrial, and hotels; 3) identify and monitor
geographic concentrations; 4) present comprehensive concentration reports to the Board on an
ongoing basis; and 5) address variances from Board-approved limits in the minutes of the Board
meetings.

The December 2008 Joint examination reported that despite softness in the overall real estate
market since the prior examination, total CRE exposure, including unfunded commitments, had
climbed to 794 percent as of October 31, 2008. Of this amount, non-owner occupied CRE totaled
$52.4 million, or 463 percent of Tier 1 Capital plus the ALLL, of which speculative lending
accounted for 365 percent of Tier 1 Capital plus the ALLL. During the same examination it was
noted that due to the high level of operational losses, problem assets, and CRE exposure, capital
was deficient relative to the bank’s risk profile. In addition, examiners reported that




5
 Based on the definition from the UBPR Report, December 2008, FSB’s peer group included all insured
commercial banks having assets between $100 million and $300 million in a metropolitan area with three or more
full service offices.


                                                                                                         I-5
measurement and monitoring of the bank’s CRE exposure level was inadequate. Specific
examples of these deficiencies included:

          Inadequate discussion by the Board regarding the justification for the bank’s decision
           to hold CRE loan totals above various Board-approved CRE limitations and/or
           approval by the Board of the over-limit conditions;
          Absence of Board discussion concerning when the bank should reduce CRE
           exposure; and
          Need to stratify the portfolios into smaller lending sectors.

As discussed in December 2006 guidance issued jointly by the FDIC, the Office of the
Comptroller of the Currency, and the Board of Governors of the Federal Reserve System,
entitled, Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance), rising CRE concentrations could expose institutions to unanticipated earnings
and capital volatility in the event of adverse changes in the general CRE market. It appears that
adverse changes in the CRE market impacted FSB negatively. In comparison with the bank’s
peer group, FSB’s level of CRE concentration was high and made the bank vulnerable to any
downturn in the CRE market.


Asset Growth Through Purchased Participation Loans

The October 2007 Joint examination noted that management had purchased 13 loan
participations from Marshall Bank First Corporation (Marshall) with commitments totaling more
than $12 million. Examiners indicated that management failed to document appraisal reviews on
credits purchased from Marshall. At the time of this examination, the bank was experiencing a
high-growth period, largely as a result of these loan participations. From December 2006 to
December 2007, FSB’s loans and assets grew 48 percent and 34 percent, respectively.

In the subsequent Joint examination in December 2008, examiners noted that loan participations
purchased from Marshall represented 47 percent of total classified loans and 68 percent of loans
classified as losses. Further, examiners indicated that due to the decline in regional and national
real estate markets, approximately 80 percent of the ADC loan participations that were purchased
from Marshall in 2006 and 2007 were non-performing. The majority of these loans were located
outside of FSB’s local market and their total balance equaled 107 percent of Tier 1 Capital plus
the ALLL as of October 31, 2008. While FSB’s concentration levels were high and put the bank
at risk, these poorly performing participations accelerated the decline of the bank’s financial
condition.

The FDIC’s Supervisory Insights, Summer 2007 issue, discusses the risks that community banks
can incur by using third-party arrangements. This article indicates that banks often “buy” the
types of loans they cannot originate in their normal trade area, and those institutions may lack
lenders with sufficient expertise to analyze the participation loans. A financial institution’s Board
and management are ultimately responsible for identifying and controlling the risks arising from
participation relationships. The institution’s responsibility is no different than if the activity was
handled directly by the institution.


                                                                                               I-6
The article also suggests that institutions entering into participation agreements can avoid
common pitfalls by:

      Conducting a thorough risk assessment to ensure that the proposed relationship is
       consistent with the institution’s strategic plan and overall business strategy;
      Conducting a thorough due diligence to focus on the third party’s financial condition,
       relevant experience, reputation, and the scope and effectiveness of its operations and
       controls;
      Reviewing applicable accounting guidance to determine if the participation agreement
       meets the criteria for a loan sale or a secured borrowing; and
      Developing a comprehensive monitoring program.

From examination findings in October of 2007 and December of 2008, it is apparent that FSB
did not follow such prudent practices before entering into its participation agreements. As a
result, these poorly managed loan participations became an important factor in the eventual
failure of the bank.

Management and Board Oversight

Business Strategies

The December 2008 Joint examination noted that the combination of the Board-approved
business plan and drastic changes in the economy had significant negative consequences on the
financial condition of the bank. At the examination, it was noted that the majority of the bank’s
problems were a by-product of the high-risk business operating plan approved by the Board and
implemented by management. Examiners indicated that the Board-approved business strategies
had allowed management to operate the bank with an elevated risk profile. Negative elements
from these strategies as noted by examiners included:

          Origination and purchase of a high volume of CRE loans, including residential and
           commercial construction loans funded for speculative purposes, and out-of-territory
           CRE loan participations;
          Utilization of an increasing and elevated level of potentially volatile liabilities to fund
           loan growth;
          Operation of the bank with a low level of on-balance sheet liquidity; and
          Investing an excessively high volume of capital in fixed assets.

As a result of the 2008 Joint examination, examiners concluded that since the last examination in
October 2007, management’s policies and practices had led directly to the following:

          A sharp increase in the level of problem loans held by the bank;
          Significant losses in the third and fourth quarters of 2008 and anticipated operational
           losses in 2009;
          A marked decline in all capital ratios and overall capital adequacy;
          A decline in the bank’s liquidity position and a reduction in available liquidity; and


                                                                                               I-7
          Violations of the FDI Act and FDIC Rules and Regulations, and contraventions of
           regulatory policy guidelines.

At the December 2008 Joint examination, examiners emphasized that, given weaknesses in the
real estate markets, management’s decision to continue funding a high level of loan growth was
questionable. Examiners noted further that if adequate analysis of the local markets had been
undertaken, management may have decided to significantly reduce loan growth.

Apparent Violations and Contraventions of Policy

At the September 20, 2004 Joint examination, examiners noted that management was generally
in compliance with FDIC Rules and Regulations; however, two inadvertent contraventions of
regulatory statements of policy were cited, related to a Policy Statement on the ALLL
Methodologies and a Policy Statement on Interest Rate Risk (IRR). In addition, an apparent
violation of the State of Arizona Revised Statutes relative to corporate insurance was identified.
The report also indicated that management proactively resolved these contraventions and the
apparent violation during the examination.

During the March 2006 Joint examination, examiners noted that management was generally in
compliance with laws, regulations and statements of policy. However, two apparent violations of
the FDIC’s Rules and Regulations 12 Code of Federal Regulations (CFR) Part 323 were
identified. 12 CFR Part 323.3(b) requires evaluations for real estate-related financial transactions
of $250,000 or less that do not require the services of a state certified or licensed appraiser.
Examiners noted two CRE loans below $250,000 that lacked a corresponding evaluation for the
respective properties securing the loans.

In the October 2007 Joint examination, examiners noted that management was generally in
compliance with laws and regulations, although multiple apparent violations of 12 CFR Part 323
were cited for lack of written appraisal reviews on purchased participations from Marshall. 12
CFR Part 323.5 (b)(2)(ii) of the FDIC’s Rules and Regulations states that, “a financial institution
may accept an appraisal prepared for another financial services institution, if: (ii) the accepting
institution determines that the appraisal conforms to the requirements of this part and is
otherwise acceptable.” Four purchased loans were listed in apparent violation of this regulation.
Appraisals were conducted by the originating institution; however, FSB management did not
conduct an appraisal review prior to funding the loans as required by the regulation.

During the 2008 Joint examination, examiners noted an apparent contravention to the
Interagency Policy Statement on the ALLL. The Policy states that management is responsible for
maintaining the ALLL at an appropriate level. The Policy further states that management should
evaluate the ALLL reported on the balance sheet as of the end of each quarter, or more
frequently if warranted, and charge or credit the Provision for Loan and Lease Losses (PLLL) to
bring the ALLL to an appropriate level as of each evaluation date. Examiners noted that although
management analyzed, prepared and presented its ALLL analysis to the Board for the periods
ending September 30, October 31, and November 30, 2008, the Board failed to approve the
recommended PLLL to maintain the ALLL at an appropriate level and, because of this lack of
approval, management failed to maintain the ALLL at an appropriate level. During this


                                                                                             I-8
examination, the ALLL was found to be inadequate by $1.65 million as of September 30, 2008.
The failure to maintain an adequate ALLL as of the September 30, 2008 reporting period
resulted in the required amended filing of the September 30, 2008 Report of Condition and
Income (Call Report).

During the same examination, it was noted that FSB was again in violation of 12 CFR Part
323.5(b)(2) of the FDIC Rules and Regulations in four loans. In addition, examiners noted that
an independent review of the bank’s IRR management process had not been conducted for nearly
18 months. The Joint Policy Statement on IRR states that a bank’s senior management and its
Board or a Board committee should receive reports on the bank’s IRR profile at least quarterly.
The policy also notes that the bank should conduct periodic reviews of its risk management
process to ensure its integrity, accuracy and reasonableness. The absence of an annual
independent review and quarterly IRR calculations were both contraventions of the policy
statement.

While not always willful or significant, these apparent violations of laws, rules and regulations
throughout the course of various examinations provide an indication of management’s and the
Board’s failure to administer the bank in a safe and sound manner, despite repeated examiners’
concerns.

Overhead Expenses

From 2001 through 2003, FRB and AZ DFI examiners concluded that the bank was unprofitable
or marginally profitable for most of this period due to non-interest expenses, as overhead
expenses represented nearly twice the level of peer institutions. According to examiners,
management expected overhead expenses to remain high until an asset size commensurate with
the bank’s infrastructure was attained.

Throughout the 2004 to 2007 period, earnings continued to be hampered by high overhead
expenses as a result of branch expansion. The October 2007 ROE indicated that in July and
October of 2007, management opened new branches in Cottonwood and Payson, Arizona.
Further, in 2007 management relocated and expanded the main headquarters/branch in Flagstaff,
Arizona. The branching and expansion plans were anticipated with the exception of the Payson
branch which unexpectedly became available for acquisition. Nonetheless, the increased staff
needed to operate the new branches resulted in additional personnel costs and caused the ratio of
total overhead expense to average assets to increase. Examiners also noted that earnings
performance had declined and needed improvement. Net income as of June 30, 2007 totaled
$193,000 compared to $401,000 as of June 30, 2006. The resulting Return on Average Assets
(ROAA) totaled .44 percent, down 57 basis points from the previous year. According to
examiners, among the primary contributors to decreased profitability was the increase in
overhead expenses. Given the addition of the Payson branch and the unanticipated interest
expense associated with the increasing volume of non-core funding sources, management
anticipated that a .35 percent ROAA was more likely at year-end 2007, versus the projected .55
percent.




                                                                                            I-9
Figure 2 shows FSB’s non-interest expenses were consistently higher than its peer group from
2004 to 2008.

Figure 2: Comparison of FSB's Total Non-interest Expenses as a Percentage of Average Assets to
          Peer Group
                            5.00%


                            4.50%
    Non-interest Expenses




                            4.00%


                            3.50%


                            3.00%


                            2.50%
                                    2004   2005         2006          2007   2008

                                                  FSB          Peer Group

Source: UBPRs for FSB.

The December 2008 Joint ROE noted that earnings were critically deficient and insufficient to
support operations and maintain appropriate capital and allowance levels. The level of loss
represented a distinct threat to the viability of the institution through capital erosion. The bank’s
earnings performance had deteriorated significantly since the previous examination. A major
factor in this deterioration was high overhead expense. Examiners indicated that as of September
30, 2008, overhead expenses as a percentage of average assets were high at 4.38 percent in
comparison to the peer level of 3.22 percent. According to examiners, the main reason for the
large increase in non-interest expense over the last 2 years was the investment in fixed assets
associated with the opening of two new branches and the occupation of the new headquarters
building.

Funding Strategies

During the October 2007 Joint examination, examiners noted that loan growth had outpaced
deposit growth and, as a result, management had increased their reliance on borrowings and
brokered deposits. The net non-core funding dependency ratio6 climbed from 3.76 percent as of
December 31, 2005 to 36.67 percent as of June 30, 2007.

Figure 3 illustrates the trend of increased reliance on non-core funding sources by FSB. In 2004
and 2005, this ratio was lower than the peer group; however, by 2007, FSB’s ratio was nearly
double the peer group average.
6
 This ratio measures the degree to which the bank is funding longer-term assets (loans, securities that mature in
more than one year, etc.) with non-core funding. Non-core funding includes funding that can be very sensitive to
changes in interest rates such as brokered deposits, Certificates of Deposit greater than $100,000, and borrowed
money. Higher ratios reflect a reliance on funding sources that may not be available in times of financial stress or
adverse changes in market conditions.


                                                                                                              I-10
Figure 3 : Comparison of FSB's Non-core Funding Dependence to Peer Group

                          50%
                          45%
       Non-Core Funding
       Dependency Ratio

                          40%
                          35%
                          30%
                          25%
                          20%
                          15%
                          10%
                           5%
                           0%
                                2004   2005   2006        2007       2008

                                        FSB   Peer Group

 Source: UBPRs for FSB.

At the December 2008 Joint examination, examiners noted that the liquidity position was
significantly deficient as the bank was relying on a high level of non-core sources to fund its
operations. Specifically, examiners reported that the bank maintained limited on-balance sheet
liquidity and continued to rely on FHLB borrowings, brokered deposits, and other non-core
funding sources. Examiners noted that those practices, coupled with an eroding and deficient
capital position, and the anticipated supervisory action that would have constrained some of
these sources, threatened the sustainability of the bank’s funding structure and ability to maintain
adequate liquidity. In addition, funds management practices were considered inadequate. During
the period following the departure of a senior official in May 2008, and the beginning of the on-
site examination, the bank did not have a functioning Asset/Liability Committee. The ROE
indicated that as the bank had an elevated level of non-core funding sources, constant
supervision of the liquidity position was paramount.

The FDIC’s Supervision of FSB
Through its supervisory activities, the FDIC identified key risks in FSB’s operations and brought
them to the attention of bank management. Concerns noted by examiners included significant
loan concentrations, growth strategies through the purchase of loan participations that failed to
perform, generally weak management and Board oversight, high overhead expenses, and reliance
on non-core funding sources. The FDIC conducted one visitation in June 2004, and jointly
conducted four on-site examinations with the AZ DFI beginning in September 2004.

Until May 2009, the FDIC relied on a combination of discussions with management relative to
areas of regulatory concern identified by examiners, and commitments from management and the
Board to address all problems and recommendations outlined in the ROEs. The FDIC first
imposed a supervisory action related to safety and soundness when a Cease and Desist Order


                                                                                            I-11
(C&D) was instituted in May 2009 as a result of the December 2008 Joint examination. FSB
stipulated to the C&D on April 30, 2009 and it became effective May 1, 2009.

Based on the FDIC and State observations during the 2008 Joint examination, it appears that
closer supervisory oversight following the 2007 examination, such as an earlier on-site visitation,
may have been prudent given the nature and extent of the risks taken by bank management.
Additional oversight during the institution’s high-growth period may have influenced FSB’s
Board and management to limit the significant level of risks assumed. It may also have
established a more appropriate supervisory tone and prompted the Board and management to
take more timely and adequate actions to address examiner concerns, thereby mitigating, to some
extent, the losses incurred by the DIF.


Supervisory History

In 2004, after FSB switched primary federal regulators, the FDIC in conjunction with AZ DIF,
provided ongoing supervision of FSB through regular on-site risk management examinations,
one on-site visitation and offsite reviews. Table 2 summarizes key information pertaining to the
onsite risk management examinations and a visitation conducted from June 2004 until the
institution failed.

Table 2 : Examination History of FSB from June 2004 to December 2008
   Examination       Examination Type       Examination      On-Site Supervisory       Supervisory        Informal or Formal
    Start Date                               as of Date             Effort           Ratings* (UFIRS)       Action** Taken

      06/29/04           Visitation           03/31/04              FDIC                No Ratings              None
      09/20/04          Examination           06/30/04           FDIC/AZ DFI             222322/2               None
      03/20/06          Examination           12/31/05           FDIC/AZ DFI             212222/2               None
      10/22/07          Examination           06/30/07           FDIC/AZ DFI             222322/2               None
                                                                                                         Cease & Desist Order
      12/08/08          Examination           09/30/08           FDIC/AZ DFI             445553/5
                                                                                                            (May 1, 2009)
Source: ROEs for FSB and DSC supervisory documents.
*Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS) to evaluate a
bank’s performance in six components represented by the CAMELS acronym: Capital adequacy, Asset quality, Management
practices, Earnings performance, Liquidity position, and Sensitivity to market risk. Each component, and an overall composite
score, is assigned a rating of 1 through 5, with 1 having the least regulatory concern and 5 having the greatest concern.
**Informal actions often take the form of Bank Board Resolutions (BBR) or Memorandums of Understanding (MOU). Formal
enforcement actions often take the form of Prompt Corrective Actions (PCA) or C&D, but under severe circumstances can also
take the form of insurance termination proceedings.

An on-site CRE/ADC visitation was initially planned for the week of December 8, 2008.
However, during the pre-planning phase, the visitation was converted into a full-scope
examination based upon the significant level of deterioration noted in the CRE/ADC portfolio.
On December 12, 2008, an interim downgrade to a composite “4” rating was issued. The bank
was formally designated a troubled institution and was notified in writing of the downgrade and
its troubled institution designation. Results of the examination indicated that the bank's overall
condition had deteriorated significantly and was now critically deficient.




                                                                                                                     I-12
May 2009 C&D. Based on the results of the December 2008 Joint examination, the FDIC
instituted a C&D, effective May 1, 2009. The C&D required FSB to, among other things:

        Raise Tier 1 Capital by no less than $2 million and to maintain Tier 1 Capital at such
         amount as to equal or exceed 10 percent of the bank’s total assets within 120 days;
        Develop a plan to meet and thereafter maintain the minimum risk-based capital
         requirement as described in Appendix A to 12 CFR Part 325 of the FDIC Rules and
         Regulations7 within 60 days from the effective date of the C&D;
        Retain qualified management;
        Increase Board participation;
        Develop, adopt, and implement a written plan for the reduction and collection of
         delinquent loans; and
        Revise, adopt, and implement written lending and collection policies to provide effective
         guidance and control over the bank’s lending function.

The C&D noted some of the following unsafe and unsound banking practices that were identified
during the 2008 Joint examination:

        Operating with management whose policies and practices were detrimental to the bank;
        Operating with inadequate capital in relation to the kind and quality of assets held by the
         bank;
        Operating with a large volume of poor quality loans;
        Engaging in unsatisfactory lending and collection practices;
        Operating with inadequate provisions for liquidity, including an elevated reliance on non-
         core funding sources; and
        Operating with inadequate internal routine and control policies.

Although a C&D was appropriate based on the risks that were identified, the ultimate viability of
the institution was already in serious question by the time the C&D was issued. By this time, due
to the rapid deterioration of the bank’s asset quality, failure of the bank was imminent.

On September 4, 2009, the AZ DFI closed FSB due to the deteriorating asset quality, inadequate
earnings and capital erosion, and named the FDIC as receiver.

Supervisory Concerns and Response to FSB’s Asset Quality

Loan Concentrations

During the October 2007 Joint examination, examiners noted that comprehensive CRE
concentration reports had not been submitted to the Board since the beginning of 2007.
7
  Capital adequacy is one of the critical factors that the FDIC is required to analyze when taking action on various types of
applications and when conducting supervisory activities related to the safety and soundness of individual banks and the banking
system. Appendix A to 12 CFR Part 325—Statement of Policy on Risk-Based Capital sets forth (1) minimum standards of capital
adequacy for insured state nonmember banks and (2) standards for determining when an insured bank is in an unsafe or unsound
condition by reason of the amount of its capital.




                                                                                                                     I-13
Management had previously prepared monthly reports that stratified the CRE portfolio by
property type and occupancy, with comparison made to the Board-approved limits. As noted in
the ROE, management prepared a Loan by Type report that segmented the portfolio into diverse
categories; however, this report did not include unfunded loan commitments, and did not
compare performance to Board-approved limits. Examiners subsequently calculated total
concentration exposure as of September 30, 2007 and determined that the commercial land
development and residential construction segments were outside policy limits. These policy
variances were not presented to the Board. The 2006 Joint Guidance encouraged management to
perform portfolio-level stress tests and consider the sensitivity of portfolio segments with
common risk characteristics to potential market conditions. At the time of this examination,
management had yet to conduct stress testing.

Table 3 summarizes FSB’s concentrations and examiner comments for examinations performed
from 2004 to 2008.

Table 3 : Supervisory Responses to CRE Concentrations for FSB
                                          CRE
                 Asset Quality
                                  Concentration as a
 Examination      Component                                            Examiner
                                  Percentage of Tier 1
    Date            Rating                                             Comment
                                 Capital Plus the ALLL
   9/20/2004          2                   506%               Management appropriately
                                                              diversified the CRE portfolio among
                                                              various industries and 75 percent of
                                                              the portfolio was owner-occupied.
                                                             It was suggested that management
                                                              monitor these industry concentrations
                                                              as a percentage of Tier 1 Capital,
                                                              rather than just outstanding loan
                                                              balances.
   3/20/2006          1                  380%                Concentrations of construction and
                                                              development loans were high;
                                                              however the portfolio was adequately
                                                              diversified.
                                                             Management tracked CRE
                                                              concentrations by industries on a
                                                              quarterly basis and provided this
                                                              report to the Board for review.
                                                             The Board was well-informed
                                                              regarding asset concentrations.
                                                             Management should expand policies
                                                              regarding credit concentrations to
                                                              better define concentrations and
                                                              reflect current reporting practices. In
                                                              addition, management should ensure
                                                              that the amended policies set limits
                                                              relative to Tier 1 Capital and
                                                              measurement of concentrations
                                                              should include both funded and
                                                              unfunded commitments.




                                                                                             I-14
                                                 CRE
                        Asset Quality
                                         Concentration as a
  Examination            Component                                           Examiner
                                         Percentage of Tier 1
     Date                  Rating                                            Comment
                                        Capital Plus the ALLL
   10/22/2007                2                   619%              Comprehensive CRE concentration
                                                                    reports had not been presented to the
                                                                    Board since the beginning of 2007.
                                                                   Concentration and default risk was
                                                                    generally mitigated through a diverse
                                                                    loan portfolio, guarantor support, and
                                                                    sufficient debt service coverage.
                                                                   Management should enhance
                                                                    concentration monitoring to fully
                                                                    comply with Joint Guidance issued
                                                                    on December 12, 2006.
                                                                   CRE Lending Guidance also requires
                                                                    that management perform portfolio-
                                                                    level stress tests, which management
                                                                    had yet to conduct.
                                                                   A repeat recommendation was made
                                                                    at this examination to include
                                                                    unfunded loan commitments in
                                                                    concentration reports.
   12/8/2008                 4                  794%               The level of CRE exposure, in
                                                                    relation to the thresholds established
                                                                    in the Joint Guidance was deemed
                                                                    excessive.
                                                                   Measurement and monitoring of the
                                                                    bank’s CRE exposure level was
                                                                    inadequate.
                                                                   A repeat recommendation from the
                                                                    previous examination to undertake
                                                                    portfolio-level stress testing was not
                                                                    implemented. If management had
                                                                    conducted stress testing of the CRE
                                                                    portfolio, the resulting analysis
                                                                    would likely have noted the bank
                                                                    held insufficient capital to adequately
                                                                    withstand a significant aggregate
                                                                    change in the underlying value of
                                                                    loan collateral and/or cash flow
                                                                    available to service many loans.
Source: ROEs for FSB.

During the 2007 Joint examination, examiners noted the following regarding the Asset Quality
component:

       Adversely classified items increased from $103,000 to $1,811,000 at this examination.
       CRE climbed from 380 percent of Tier 1 Capital plus the ALLL during the 2006 Joint
        examination to 619 percent.
       Management failed to document its appraisal reviews on purchased credits.




                                                                                                   I-15
      Management became aware that a specific credit had well-defined weaknesses.
       Management should have immediately reported the credit on the bank’s Watch List,
       conducted an impairment analysis, and appropriately reflected the exposure in the ALLL
       methodology.
      Management should enhance concentration monitoring to fully comply with the Joint
       Guidance.
      A repeat recommendation is made again at this examination to support ALLL loss
       factors.

In relation to CRE concentrations, the Joint Guidance states the following:

   An institution that has experienced rapid growth in CRE lending, has notable exposure to a
   specific type of CRE, or is approaching or exceeds the following supervisory criteria may be
   identified for further supervisory analysis of the level and nature of its CRE concentration
   risk:

      Total reported loans for construction, land development, and other land represent
       100 percent or more of the institution’s total capital; or
      Total commercial real estate loans as defined in this Guidance represent 300 percent or
       more of the institution’s total capital, and the outstanding balance of the institution’s
       commercial real estate loan portfolio has increased by 50 percent or more during the prior
       36 months.

The Joint Guidance further states that “because regulatory reports capture a broad range of CRE
loans with varying risk characteristics, the supervisory monitoring criteria do not constitute
limits on an institution’s lending activity but rather serve as high-level indicators to identify
institutions potentially exposed to CRE concentration risk.”

Through its examinations, it appears that examiners appropriately informed management of the
need to monitor and report concentration levels as required by the Joint Guidance. However, the
guidance specifically informs examiners that “the guidance is not intended to limit banks’ CRE
lending.” Hence, as mentioned by examiners during interviews, no additional steps were taken to
limit the excessive level of CRE concentrations that threatened the safety and soundness of FSB.

Loan Participations

The FDIC Risk Management Manual of Examination Policies (Examination Manual) indicates
that examiners are responsible for evaluating and reporting the extent to which an institution
assesses and mitigates third-party risk. This risk includes the reliance on another institution to
properly underwrite and administer a loan in which an institution has a participation interest. The
criteria for participation loans should be consistent with that for similar direct loans. Institutions
that purchase participation loans (1) must make a thorough, independent evaluation of the
transaction and the risks involved before committing any funds and (2) should apply the same
standards of prudence, credit assessment, approval criteria and “in-house” limits that would be
employed if the purchasing organization were originating the loan.



                                                                                              I-16
FSB’s growth in purchased participation loans resulted in heightened supervisory concern during
the October 2007 Joint examination. At the time, the loan participation portfolio consisted of 13
loans totaling $12.9 million, and represented 111 percent of Tier 1 Capital plus the ALLL.
Examiners made a number of observations for managing the participations portfolio. These
included:

        Conduct ongoing due diligence on the originating institution;
        Monitor the economic conditions in the applicable markets; and
        Conduct sufficient ongoing credit monitoring to ensure loans are appropriately
         administered and risk graded.

According to examiners, these loan participations were part of the Shared National Credit (SNC)
Program8 and therefore the grades assigned to these loans at the SNC Review remained in effect
at the 2007 examination.

During the December 2008 Joint examination, regulators expressed increased concern regarding
the loan participations, including:

        Loan participations represented 47 percent of total classified loans and 68 percent of
         loans classified Loss; and
        Approximately 80 percent of the ADC loan participations purchased from Marshall in
         2006 and 2007 were non-performing.


Supervisory Response to Asset Quality Concerns. The Examination Manual defines an Asset
Quality rating of "2" as "satisfactory asset quality and credit administration practices. The level
and severity of classifications and other weaknesses warrant a limited level of supervisory
attention." The number and extent of the issues identified by examiners during the October 2007
Joint examination regarding asset quality, the nature of recommendations in regard to the loan
participations, and the high loan concentrations, appear to be in contrast with that definition. In
that regard, DSC officials indicated that the “2” rating was supported by the fact that:

        Classifications represented only 15 percent of Tier 1 Capital plus the ALLL and one loan
         made up nearly $900,000, or one-half, of the total adversely classified loans,
        collateral values were well-supported by new appraisals,
        credit underwriting and credit administration practices were deemed “overall” adequate,
        the ALLL was adequately funded, and
        non-current loans were at a low level.

Further, DSC officials explained that it was the examiners’ view at the time that FSB’s Chief
Credit Officer and loan officer were strong and management appeared willing and able to
8
 The SNC program was established in 1977 by the Board of Governors of the Federal Reserve System, the FDIC,
and the Office of the Comptroller of the Currency to provide an efficient and consistent review and classification of
any large syndicated loan. Today, the program covers any loan or loan commitment of at least $20 million that is
shared by three or more supervised institutions. The agencies’ review is conducted annually, usually in May and
June.


                                                                                                             I-17
implement recommendations included in the examination report to enhance credit underwriting
and credit administration.

Unfortunately, following the 2007 examination, management continued to increase the number
of risky loans in its portfolio and did not implement all of the recommendations made at the 2007
examination. These actions, coupled with the deteriorating economy in the bank’s market, led to
a further decline in asset quality as discussed earlier in this report.

Supervisory Concerns and Response to FSB’s Board and Management

Management Team

DSC’s Supervisory History document noted that during the first three examinations, which were
performed by the FRB and the AZ DFI prior to the bank’s change in regulator to the FDIC in
2004, a senior official was found to be dominating bank strategies, policies, and operations.

From 2004 through 2007, when three onsite examinations were performed, no references were
made in ROEs to a dominant figure at the bank. Examiners indicated that, during this time frame,
the Board was comprised of individuals with varying business perspectives who were not unduly
persuaded by one individual. However, the December 2008 Joint examination noted that a senior
official had been involved with the majority of decisions that were impacting the overall
condition of the bank at the time. Further, the DSC Supervisory History, in regard to this
examination, noted that the affairs of the bank again were dominated by this senior official and a
member of the Board.

Business and Risk Mitigation Strategies

At the 2004, 2005, and 2007 examinations, examiners did not criticize FSB’s business operating
plan. The 2007 Joint examination, however, made recommendations to address portfolio-level
stress tests or sensitivity analysis in order to quantify the impact of changing economic
conditions on asset quality, earnings, and capital; and to develop contingency plans to reduce or
mitigate concentrations in the event of adverse CRE market conditions.

During the 2008 Joint examination, examiners noted that FSB’s business practice of originating
and purchasing a high volume of CRE loans, including residential and commercial properties,
was considered high risk. Management had not conducted stress tests as recommended in
October of 2007. Examiners noted that supervision of the bank by the Board and management
was deficient and that the majority of the bank’s problems were a by-product of the high-risk
business operating plan. Examiners recommended the supervisory action of a C&D including a
provision on reducing CRE loan concentrations. However, by the time the C&D was instituted,
the financial condition of the bank was extremely precarious.

Supervisory Response to Board and Management Concerns. With respect to business and
risk mitigation strategies, recommendations associated with stress testing and reducing
concentrations made in October of 2007 may have been more effective if the ROE had stipulated



                                                                                          I-18
them as requirements. Stronger supervisory actions may have helped prevent some of the
financial deterioration of the institution if implemented at that time.

Supervisory Concerns and Response to FSB’s Funding

At the March 2006 Joint examination, examiners noted that liquidity and funds management
practices were satisfactory and that the non-core funding dependency ratio was minimal at
3.76 percent. At the October 2007 examination, examiners indicated that loan growth had
outpaced deposit growth and as a result, management had increased their reliance on non-core
deposits. The net non-core funding ratio was up to 36.67 percent. Examiners noted that
management should enhance liquidity planning and monitoring given the bank’s changing
funding sources. In addition, examiners made recommendations to strengthen funds management
procedures.

As of the December 2008 Joint examination, examiners noted that FSB maintained limited on-
balance sheet liquidity and continued to rely upon FHLB borrowings, brokered deposits, and
other non-core funding sources. These practices, together with eroding capital, deficient capital
positions, and the anticipated enforcement action (the C&D issued subsequently in May 2009),
threatened the sustainability of the bank's funding structure and ability to maintain adequate
liquidity.

Supervisory Response to Funding Concerns. Based on the rapid increase in the bank’s net
non-core funding dependency between the 2006 and 2007 examinations, a stronger supervisory
response may have been warranted at the 2007 examination. A stronger response may have
included further criticism of management and a possible downgrade in the management
component rating to reflect management’s decision to fuel asset growth through non-core
deposits and/or a supervisory action that required the bank to limit its reliance on non-core
funding sources.


Effectiveness of Offsite Review of FSB

The offsite review program is designed to identify emerging supervisory concerns and potential
problems so that supervisory strategies can be adjusted appropriately. Offsite reviews are
performed quarterly for each bank that appears on the Offsite Review List. Regional
management is responsible for implementing procedures to ensure that offsite review findings
are factored into examination schedules and other supervisory activities. Offsite reviews must be
completed and approved 3 ½ months after each Call Report date. This generally provides 45
days to complete the offsite reviews once Call Report data is finalized.




                                                                                           I-19
The system-generated Offsite Review List includes only institutions rated “1” and “2” that are
either:
     Identified by the Statistical CAMELS Offsite Rating (SCOR) system as having a 35
        percent or higher probability of downgrade to “3” or worse9, or
     Identified in the Growth Monitoring System (GMS) as having a growth percentile of 98
        or 9910.

During the 2007 Joint examination, examiners noted that with management’s increasing reliance
on borrowings and brokered deposits to fund loan growth, the bank’s cost of funds had steadily
increased and totaled 3.75 percent as of June 30, 2007, up from 2.97 percent as of June 20, 2006.
Examiners also noted that the bank maintained a significant concentration in CRE loans that
represented 619.17 percent of Tier 1 Capital plus the ALLL as of September 30, 2007. Even
though emerging risks such as reliance on non-core funding and high loan concentration levels
were identified by the end of 2007, the Offsite Review List, which is triggered by data coming
from the Call Report, did not identify these risks until March 2008.

The March 31, 2008 offsite review noted that earnings were negative. This was primarily due to
high overhead expenses and increased provisions to the ALLL. The level of past due and
nonaccrual loans had risen dramatically, primarily due to loans purchased from Marshall. The
offsite review also indicated that the bank was in the process of finalizing a private capital
offering to current shareholders to help absorb potential losses and shore up capital if needed.

The June 30, 2008 offsite review noted that the level of past due and nonaccrual loans continued
to increase, primarily due to loan participations and CRE market deterioration. The bank’s
previous expansion activities had negatively impacted earnings, and at this point, asset quality
problems were hindering the bank’s ability to return to profitability. Examiners noted that the
FDIC’s San Francisco Regional Office would continue to monitor the bank’s condition and that
the next examination was scheduled for the second quarter of 2009 and would be accelerated if
necessary.

The September 30, 2008 offsite review noted that, based on concerns related to deterioration
noted in the bank’s second quarter Call Reports, the FDIC’s Phoenix Field Office conducted an
on-site visitation to review the bank’s ADC portfolios during the fourth quarter. Given the
deterioration noted in these portfolios, the visitation was converted to a full-scope examination
during the pre-planning phase. Preliminary examination findings indicated that the bank had
incorrectly filed its September 30, 2008 Call Report. If filed correctly, the bank’s PCA capital
category would have been Adequately Capitalized. The offsite review report indicated that the
bank needed to raise equity capital by $3 million to return the bank to a PCA capital category of
Well Capitalized.



9
  SCOR is a financial model that uses statistical techniques, offsite data, and historical examination results to
measure the likelihood that an institution will receive a CAMELS downgrade at the next examination.
10
   GMS is an offsite rating tool that identifies institutions experiencing rapid growth and/or having a funding
structure highly dependent on non-core funding sources.



                                                                                                                I-20
FSB had increasing risk indicators in 2007 with high concentration levels and asset growth,
partially in the form of purchased loan participations, and an increased reliance on non-core
funding to fuel this growth. However, the offsite review program was not triggered until 2008,
when FSB’s growth had already been realized and the condition of the bank had deteriorated
significantly.

Implementation of PCA

The purpose of PCA is to resolve the problems of insured depository institutions at the least
possible long-term cost to the DIF. 12 CFR Part 325 of the FDIC Rules and Regulations
implements the PCA requirements of section 38 of the FDI Act by establishing a framework of
restrictions and mandatory supervisory actions that are triggered by an institution’s capital levels.
Based on the supervisory actions taken, the FDIC properly implemented applicable PCA
provisions. However, capital levels turned out to be a lagging indicator of the institution’s
financial condition. Other factors, including earnings, asset quality, and management that were
identified in earlier examinations, were better indicators that the bank’s viability was in question.

Table 4 illustrates that FSB was considered Well Capitalized for PCA purposes until the 2008
Joint examination when the institution was already in serious jeopardy of failing.

Table 4: FSB’s PCA Capitalization Categories
 Examination as of           Capitalization Category             Informal or Formal
        Date                                                         Action Taken
     6/30/2004                    Well Capitalized                        None
    12/31/2005                    Well Capitalized                        None
     6/30/2007                    Well Capitalized                        None
                                                                Cease & Desist Order
      9/30/2008                Adequately Capitalized
                                                                       5/01/2009
                                                                   Institution Closed
           *               Significantly Undercapitalized
                                                                       9/04/2009
Source: ROEs for FSB and DSC Supervisory Documentation.
* Based on FDIC PCA Notification as of 6/30/2009 Call Report.

During the December 2008 Joint examination, examiners noted that due to the high level of
additional provision expenses, FSB’s adjusted Tier 1 Capital ratio and Total Risk-Based capital
ratios were 7.4 percent and 8.7 percent respectively. The ROE noted that without a large capital
injection prior to December 31, 2008, the bank’s capitalization category would remain
Adequately Capitalized. Examiners noted that due to the level of problem loans and nonaccrual
assets, the possible migration of assets identified as substandard to more severe risk categories,
and the implication of operating without a PCA category of Well Capitalized, the adjusted capital
levels did not adequately support the bank’s risk profile. The DSC Supervisory History
indicated that at the conclusion of the examination, the Board initiated a sale of additional stock,
which resulted in a capital injection of $2.2 million into the bank. The capital position improved
somewhat as a result of the capital injection; however, the bank remained Adequately Capitalized
for PCA purposes.



                                                                                             I-21
The C&D, signed on May 1, 2009, ordered the bank to raise Tier 1 Capital by no less than
$2 million and to maintain Tier 1 Capital at such amount as to equal or exceed 10 percent of the
bank’s total assets within 120 days. The C&D also ordered, within 60 days from the effective
date of the order, the development of a plan to meet and thereafter maintain the minimum risk-
based capital requirement as described in Appendix A to 12 CFR Part 325 of the FDIC Rules and
Regulations.

The FDIC issued a PCA notification to FSB on August 12, 2009, based on the analysis of the
June 30, 2009 Call Report, and the examiners’ determination that the bank fell within the
Significantly Undercapitalized capital category. The key capital ratios in the notification were
Total Risk-Based Capital Ratio of 5.72 percent, Tier 1 Risk-Based Capital Ratio of 4.46 percent
and Tier 1 Leverage Ratio of 3.95 percent. The bank was then required to file a written capital
restoration plan and provide a summary of the specific steps taken by management to comply
with the mandatory restrictions required under section 38 within 45 days of receipt of the
notification. Pursuant to the FDIC’s regulations, this notification constituted written notice of
FSB’s capital category for purposes of the PCA provisions of section 38. The bank was unable
to submit an adequate capital restoration plan and on September 4, 2009, the AZ DFI closed FSB
due to its deteriorating asset quality, inadequate earnings and capital erosion, and named the
FDIC as receiver.




                                                                                         I-22
                                                                                    Appendix 1



Appendices
                          Objectives, Scope, and Methodology


Objectives

We performed this performance audit to satisfy the requirements of section 38(k) of the FDI Act,
which provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking agency
shall prepare a report to that agency reviewing the agency’s supervision of the institution. The
FDI Act requires that the report be completed within 6 months after it becomes apparent that a
material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure and
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution,
including implementation of the PCA provisions of section 38. We evaluated whether capital
was an adequate indicator of safety and soundness and the FDIC’s compliance with PCA
guidelines.

We conducted this performance audit from December 2009 to February 2010 in accordance with
Generally Accepted Government Auditing Standards (GAGAS). Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained, as described in the Scope and Methodology section, provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of FSB from April 2004, when the FDIC became the
institution’s primary Federal regulator, until its failure on September 4, 2009. Our review also
entailed an evaluation of the regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and utilized the following
techniques:

        Analyzed examination and visitation reports prepared by FDIC and AZ DFI examiners
         from June 2004 to December 2008.

        Reviewed the following documentation:

              Financial institution data and correspondence maintained at DSC’s San Francisco
               Regional Office and Phoenix Field Office, as provided to KPMG by DSC.




                                                                                            I-23
                                                                                     Appendix 1

              Reports prepared by the Division of Resolutions and Receiverships (DRR) and DSC
               relating to the bank’s closure.

              Pertinent DSC policies and procedures.

        Interviewed the relevant FDIC officials having supervisory responsibilities pertaining to
         FSB, which included DSC examination staff in the San Francisco Region.

        Interviewed appropriate officials from the AZ DFI to discuss the historical perspective of
         the institution, its examinations, and other activities regarding the state’s supervision of
         the bank.

        Researched various banking laws and regulations, including state laws.

KPMG relied primarily upon the materials provided by the FDIC OIG and DSC, including
information and other data collected during interviews. KPMG did not perform specific audit
procedures to ensure the information and data were complete and accurate. KPMG is, however,
aware that Circular 12000.1, Cooperation with the Office of Inspector General, dated September
28, 2007, requires that all FDIC employees, contractors, and subcontractors cooperate with the
OIG in order for the OIG to carry out its statutory mandate. To that end, all employees,
contractors, and subcontractors must:

     (1) Provide authorized representatives of the OIG immediate and unrestricted access to all
Corporation, receivership, contractor, and subcontractor personnel, facilities, equipment, hard
copy and electronic records, files, information systems, and other sources of information when
requested during the course of their official duties.

     (2) Provide authorized representatives of the OIG immediate and unrestricted access to any
records or material available to any part of the FDIC.

Interviews were conducted to gain a better understanding of decisions made regarding the
supervisory approach to the institution and to clarify information and conclusions contained in
reports of examination and other relevant supervisory correspondence between the FDIC and the
bank. KPMG relied on the information provided in the interviews without conducting additional
specific audit procedures to test such information.

Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs, and
interviews of examiners to understand FSB’s management controls pertaining to causes of failure
and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system controls
were not significant to the audit objectives and, therefore, did not evaluate the effectiveness of


                                                                                             I-24
                                                                                    Appendix 1

information system controls. We relied on our analysis of information from various sources,
including ROEs, correspondence files, and testimonial evidence to corroborate data obtained
from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs Executive
Branch agencies to develop a customer-focused strategic plan, align agency programs and
activities with concrete missions and goals, and prepare and report on annual performance plans.
For this material loss review, we did not assess the strengths and weaknesses of DSC’s annual
performance plan in meeting the requirements of the Results Act because such an assessment is
not part of the audit objectives. DSC’s compliance with the Results Act is reviewed in OIG’s
program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine whether the
FDIC had complied with provisions of PCA and limited tests to determine compliance with
certain aspects of the FDI Act. The results of our tests are discussed, where appropriate, in this
report. Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.




                                                                                            I-25
                                                                                        Appendix 2




                                    Glossary of Terms


          Term                                             Definition
Adversely Classified Assets   Assets subject to criticism and/or comment in an examination
                              report. Adversely classified assets are allocated on the basis of risk
                              (lowest to highest) into three categories: Substandard, Doubtful,
                              and Loss.

Allowance for Loan and        Federally insured depository institutions must maintain an ALLL
Lease Losses (ALLL)           that is adequate to absorb the estimated loan losses associated with
                              the loan and lease portfolio (including all binding commitments to
                              lend). To the extent not provided for in a separate liability account,
                              the ALLL should also be sufficient to absorb estimated loan losses
                              associated with off-balance sheet loan instruments such as standby
                              letters of credit.

Call Report                   Consolidated Reports of Condition and Income (also known as the
                              Call Reports) are reports that are required to be filed by every
                              national bank, state member bank, and insured nonmember bank
                              pursuant to the Federal Deposit Insurance Act. These reports are
                              used to calculate deposit insurance assessments and monitor the
                              condition, performance, and risk profile of individual banks and
                              the banking industry.


Cease and Desist Order        A formal enforcement action issued by financial institution
(C&D)                         regulators to a bank or affiliated party to stop an unsafe or unsound
                              practice or violation. A C&D may be terminated when the bank’s
                              condition has significantly improved and the action is no longer
                              needed or the bank has materially complied with its terms.


Concentration                 A concentration is a significantly large volume of economically
                              related assets that an institution has advanced or committed to a
                              certain industry, person, entity, or affiliated group. These assets
                              may, in the aggregate, present a substantial risk to the safety and
                              soundness of the institution.

Memorandum of                 A Memorandum of Understanding is an informal agreement
Understanding (MOU)           between the institution and the FDIC, which is signed by both
                              parties. The State Authority may also be party to the agreement.
                              MOUs are designed to address and correct identified weaknesses
                              in an institution’s condition.




                                                                                                    I-26
                                                                                    Appendix 2



           Term                                         Definition
Participation Loans        A loan participation is a sharing or selling of ownership interests in
                           a loan between two or more financial institutions. Normally, a lead
                           bank originates the loan and sells ownership interests to one or
                           more participating banks at the time the loan is closed. Loan
                           participations allow selling banks to (1) accommodate large loan
                           requests which would otherwise exceed lending limits, (2)
                           diversify risk, and (3) improve liquidity.
Prompt Corrective Action   The purpose of PCA is to resolve the problems of insured
(PCA)                      depository institutions at the least possible long-term cost to the
                           DIF. Part 325 of the FDIC Rules and Regulations, 12 Code of
                           Federal Regulations, section 325.101, et. seq., implements section
                           38, Prompt Corrective Action, of the FDI Act, 12 United States
                           Code section 1831o, by establishing a framework for taking
                           prompt corrective supervisory actions against insured nonmember
                           banks that are less than adequately capitalized. The following
                           terms are used to describe capital adequacy: Well Capitalized,
                           Adequately Capitalized, Undercapitalized, Significantly
                           Undercapitalized, and Critically Undercapitalized.
Uniform Bank Performance   The UBPR is an analysis of financial institution financial data and
Report (UBPR)              ratios that includes extensive comparisons to peer group
                           performance. The report is produced by the Federal Financial
                           Institutions Examination Council for the use of banking
                           supervisors, bankers, and the general public and is produced
                           quarterly from Call Report data submitted by banks.




                                                                                              I-27
                                                                                    Appendix 3




                                         Acronyms


ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
AZ DFI   Arizona Department of Financial Institutions
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market Risk
CFR      Code of Federal Regulations
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
FRB      Federal Reserve Bank
FSB      First State Bank
GAGAS    Generally Accepted Government Auditing Standards
GMS      Growth Monitoring System
IRR      Interest Rate Risk
MOU      Memorandum of Understanding
OIG      Office of Inspector General
PCA      Prompt Corrective Action
PLLL     Provision for Loan and Lease Losses
ROAA     Return on Average Assets
ROE      Report of Examination
SCOR     Statistical CAMELS Offsite Rating
SNC      Shared National Credit
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                                                                             I-28
               Part II

OIG Evaluation of Management Response
OIG Evaluation of Management Response
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On March 22, 2010, the
Director, Division of Supervision and Consumer Protection (DSC), provided a written
response to the draft report. That response is provided in its entirety on page II-2 of this
report.

DSC reiterated the OIG’s conclusions regarding the causes of FSB’s failure and the
FDIC’s supervision of the bank. DSC stated that FSB’s Board and management were
expected to identify and control the third-party risks arising from participatory
relationships to the same extent as if the activity, such as lending, were handled within
the institution. The FDIC issued a Financial Institution Letter on Managing Third-Party
Risks in June 2008, which outlined the basic elements for effective third-party risk
management. Moreover, the FDIC’s Summer 2007 Supervisory Insights provided risk
management procedures for performing due diligence specifically on purchased loan
participations.




                                            II-1
                                    Corporation Comments




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                Division of Supervision and Consumer Protection

                                                                          March 22, 2010
TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Draft Audit Report Entitled, Material Loss Review of First State Bank, Flagstaff,
                  Arizona (Assignment 2010-009)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of First State
Bank, Flagstaff, Arizona (FSB) which failed on September 4, 2009. This memorandum is the
response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft
Report (Report) received on March 4, 2010.

The Report concludes that FSB failed due to high commercial real estate (CRE) loan
concentrations, particularly acquisition, development and construction (ADC) projects, risky
loan participation purchases, weak management and Board Oversight, high overhead expenses,
and asset growth funded by non-core sources. The Report indicates that FSB’s strategy to pursue
asset growth funded with non-core deposits, coupled with ineffective limits on the ADC
concentrations and a failure to address supervisory concerns, created unacceptable levels of risk
for FSB.

FDIC and Arizona Department of Financial Institutions examiners conducted four joint
examinations from 2004 to 2008, after it converted to a state non-member bank. The Report
states that through its supervisory activities, FDIC identified key risks in FSB’s operations and
brought them to the attention of bank management. While FSB maintained an elevated risk
profile prior to 2007, its strategy to purchase out-of-territory participation ADC loans largely
contributed to its failure. Review of the June 2008 Offsite Review List, which was completed in
October 2008, indicated that FSB’s past due and non-accrual loan levels had increased
significantly. DSC scheduled an onsite visitation for December 2008; however, based upon the
deterioration in FSB’s overall condition, the visitation was converted to a full scope joint
examination. Approximately 80 percent of the ADC loan participations were non-performing
during the December 2008 examination, resulting in the issuance of a Cease and Desist order that
became effective May 2009.

FSB’s Board and management were expected to identify and control the third-party risks arising
from participatory relationships to the same extent as if the activity, such as lending, were
handled within the institution. FDIC issued a Financial Institution Letter on Managing Third
Party Risks in June of 2008, which outlined the basic elements for effective third-party risk
management. Moreover, FDIC’s Summer 2007 Supervisory Insights provided risk management
procedures for performing due diligence specifically on purchased loan participations.

Thank you for the opportunity to review and comment on the Report.

                                                  II-2
